                                                NATIONAL SCIENCE FOUNDATION
                                                    4201 WILSON BOULEVARD
                                                      ARLINGTON, VIRGINIA 22230




            OFFICE OF
        INSPECTOR GENERAL




         MEMORANDUM
    ~
         Date:




        - -
    ,    To:      .
         Through:




        -
                                                                                                                                        .. .   ..   ~   ~ -. -


         From:
         Re:                  Case Resolution           -
I


         Allegation:
I
I               We received an allegation that Dr.             while working at NSF, awarded
1        funding to universities in order to procure his current position at the University of


                    Dr.-,    a faculty member at the Universityn
                                                               -i-o
                                                                  f
                        worked in a two year appointed position at NSF from January 1993 to
         December 1994.
         ~    -~
                         - , in the Division of Environmental Bioloav. -.     In January 1995, he
         became the Director of the                                                      niversity
         of                  He  remained on the-faculty of the    University  of a     n        d
         currently travels between the two universities.

         Findings:

                 We sampled and reviewed             grants that received funding during Dr.
                  appointment at NSF. We found no evidence that Dr.-             violated any
         restrictions on approving funding to universities.

                   We reviewed the conflict of interest forms that ~ m f i l e with
                                                                                  d NSF's Office
         of the General Counsel. He listed the University o         f   e    o and the University
                                1
         of                       on these forms. There was no evidence that Dr-igned
         an-undnig                      for these universities. In addition, Dr.-transferred
         his grant at the University o        f    r       (              to another PI when he
         accepted his position at NSF.


         ' The University of-                       awarded D      r    . honorarium. The honorarium obligates the recipient to
         list the institution as a conflict of interest for one year. D r . l i s t e d the university as a conflict of interest from
         April 1993 to June 1994.
                                   We examined Dr-        travel expenditures for his NSF grants from January
                            1995 to present. O n two occasions, D r . received reimbursements from the
                            University o-f           and the University of -for               the same travel
                            expenses. Dr.       reimbursed the University of-account                 on both
                            occasions.

~                           Conclusions:

I
                                   We have not found any evidence that Dr.-funded         grants for the purposes
                            of his own financial interests or career interests. Furthermore, there is no evidence
!
                            that ~ r . v i o l a t e dany NSF or U.S. Code restrictions for allocating funding to
I,   -   . --   - ..   --
                            universities.           ~     ._ ..._                                               -_..p_...


                                   Based on our findings, this case is closed.
